September 2007
Report No. AUD-07-013


Response to Privacy Program
Information Request in OMB’s Fiscal
Year 2007 Reporting Instructions for
FISMA and Agency Privacy
Management



            AUDIT REPORT
                                                                                           Report No. AUD-07-013
                                                                                                  September 2007


                                                        Response to Privacy Program Information
                                                        Request in OMB’s Fiscal Year 2007
                                                        Reporting Instructions for FISMA and
                                                        Agency Privacy Management
Background and Purpose of Audit
                                                        Results of Audit
In fulfilling its legislative mandate of insuring
deposits, supervising financial institutions, and
managing receiverships and in its role as a federal     The FDIC continues to take action to safeguard its PII and
employer and acquirer of services, the FDIC             related systems and address privacy-related provisions of
creates and acquires a significant amount of            recent OMB memoranda. Of particular note, the FDIC has
personally identifiable information (PII)               appointed a senior agency official for privacy, conducted
(e.g., name, Social Security number, or biometric       privacy reviews prescribed by OMB, and provided
records) related to depositors and borrowers at         employees and contractors with privacy-awareness training.
FDIC-insured financial institutions and FDIC            Importantly, the FDIC has established a process for
employees and contractors. Much of the PII              conducting PIAs of its information systems containing PII
managed by the FDIC and its contractors falls
                                                        that is consistent with relevant privacy-related policy,
within the scope of several statutes and regulations
intended to protect such information from
                                                        guidance, and standards. In addition, the FDIC is making
unauthorized disclosure.                                satisfactory progress in implementing the provisions of OMB
                                                        Memorandum M-06-15. Further, the FDIC is working to
On July 25, 2007, the Office of Management and          complete a number of ongoing privacy program initiatives to
Budget (OMB) issued Memorandum M-07-19,                 safeguard its PII and related systems consistent with privacy-
FY 2007 Reporting Instructions for the Federal          related statutes, policies, and guidelines. Such initiatives
Information Security Management Act and Agency          include:
Privacy Management. The memorandum directs
agency Inspectors General to provide relevant               •   Deploying new software that automatically encrypts
status information on agency privacy programs. In
                                                                sensitive information stored on portable computing
addition, the memorandum directs agency IGs to
assess (1) the quality of their agencies’ process for           devices (e.g., laptops and flash drives).
conducting privacy impact assessments (PIA) of              •   Conducting a comprehensive review of access
systems containing PII and (2) the progress the                 controls over sensitive information stored on network
agency is making in implementing PII safeguards                 shared drives throughout the Corporation.
recommended in OMB Memorandum M-06-15,                      •   Ensuring that access to applications containing PII is
Safeguarding Personally Identifiable Information,               appropriately limited.
dated May 2, 2006. OMB defines a PIA as a                   •   Referencing in corporate policy the FDIC’s new
process for (1) examining the risks of using
                                                                breach notification plan and procedures for
information technology to collect, maintain, and
disseminate PII from or about members of the
                                                                responding to PII breaches.
public and for (2) identifying and evaluating               •   Implementing measures to ensure technologies used
protections and alternative processes to mitigate the           to collect, use, store, and disclose PII allow for
impact to privacy of collecting such information.               continuous auditing of compliance with stated
                                                                privacy policies and practices.
Consistent with the provisions of OMB                       •   Logging all computer-readable data extracts from
Memorandum M-07-19, the objective of the audit                  databases holding sensitive information and verifying
was to assess the status of the FDIC’s privacy                  that each extract, including sensitive data, has been
program activities and initiatives. Our work
                                                                erased within 90 days or its use is still required.
focused on the status of the FDIC’s efforts to
address selected key provisions of privacy-related
memoranda recently issued by OMB.                       This report contains no recommendations. We plan to follow
                                                        up on the status of these initiatives as part of future privacy
To view the full report, go to                          reviews.
www.fdicig.gov/2007reports.asp
                                TABLE OF CONTENTS


BACKGROUND                                                                   2

RESULTS OF AUDIT                                                             4

THE FDIC’s PRIVACY IMPACT ASSESSMENT PROCESS                                5

THE FDIC’S PROGRESS IN IMPLEMENTING THE PROVISIONS OF OMB                    6
MEMORANDUM M-06-15

STATUS OF THE FDIC’S ACTIONS TO ADDRESS SELECTED KEY                         8
PROVISIONS OF OMB PRIVACY-RELATED MEMORANDA

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                               13
APPENDIX II: PRIVACY-RELATED LAWS, POLICIES, AND GUIDELINES                 15

TABLES
Table 1: Status of FDIC Actions Related to Selected Key Provisions of OMB    7
         Memorandum M-06-15
Table 2: Status of FDIC Actions to Address Selected Key Provisions of        8
         Privacy-related Memoranda Issued by the OMB

FIGURE
The FDIC’s Privacy Program Components                                        3


 ACRONYMS

 CD/DVD         Compact Disk/Digital Versatile Disk
 CIO            Chief Information Officer
 CPO            Chief Privacy Officer
 DIT            Division of Information Technology
 FIPS PUB       Federal Information Processing Standards Publication
 FISMA          Federal Information Security Management Act
 FMFIA          Federal Managers’ Financial Integrity Act
 IG             Inspector General
 IT             Information Technology
 KPMG           KPMG LLP
 NIST           National Institute of Standards and Technology
 OIG            Office of Inspector General
 OMB            Office of Management and Budget
 PIA            Privacy Impact Assessment
 PII            Personally Identifiable Information
 POA&M          Plan of Action and Milestones
 PTA            Privacy Threshold Assessment
 RUP®           Rational Unified Process
 SP             Special Publication
 SSN            Social Security Number
 USB            Universal Serial Bus
Federal Deposit Insurance Corporation                                                                 Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General


DATE:                                     September 26, 2007

MEMORANDUM TO:                            Michael E. Bartell, Chief Privacy Officer


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Response to Privacy Program Information Request in
                                          OMB’s Fiscal Year 2007 Reporting Instructions for FISMA
                                          and Agency Privacy Management
                                          (Report No. 07-013)


This report presents the results of our audit of the status of the FDIC’s privacy program.
We performed the audit in response to a request for privacy program information in the
Office of Management and Budget’s (OMB) July 25, 2007 Memorandum M-07-19,
FY 2007 Reporting Instructions for the Federal Information Security Management Act
[FISMA] and Agency Privacy Management. The OMB memorandum directs agency
Inspectors General (IG) to provide relevant status information on agency privacy
programs. In addition, the memorandum directs agency IGs to assess (1) the quality of
their agencies’ process for conducting privacy impact assessments (PIA) 1 of systems
containing PII 2 and (2) the progress the agency is making in implementing PII safeguards
recommended in OMB Memorandum M-06-15, Safeguarding Personally Identifiable
Information, dated May 22, 2006. As part of our audit, we assessed the status of the
FDIC’s efforts to address selected key provisions of privacy-related memoranda recently
issued by OMB.

The objective of the audit was to assess the status of the FDIC’s privacy program
activities and initiatives. As part of our work, we followed up on privacy-related issues
identified in prior audit reports, particularly, The FDIC’s Compliance With Section 522 of
the Consolidated Appropriations Act, 2005 (Report No. 07-003) issued in January 2007
and prepared by KPMG, LLP (KPMG) under contract with the FDIC Office of Inspector
General (OIG). The OIG contracted separately with KPMG to evaluate and report on the

1
    According to OMB Memorandum M-07-19, a PIA is a process for (1) examining the risks and
    ramifications of using information technology (IT) to collect, maintain, and disseminate personally
    identifiable information (PII) from or about members of the public and for (2) identifying and evaluating
    protections and alternative processes to mitigate the impact to privacy of collecting such information.
2
    OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally
    Identifiable Information, defines PII as information that can be used to distinguish or trace an
    individual’s identity, such as their name, Social Security number (SSN), biometric records, etc., alone, or
    when combined with other personal or identifying information that is linked or linkable to a specific
    individual, such as date and place of birth, mother’s maiden name, etc.
FDIC’s information security program and practices pursuant to FISMA. As part of its
information security program evaluation, KPMG prepared responses to security-related
questions directed to agency IGs in OMB Memorandum M-07-19. KPMG’s security
program evaluation report, 3 together with this report, fulfill the OIG’s reporting
responsibilities under FISMA and related OMB guidance. We conducted this audit in
accordance with generally accepted government auditing standards. Appendix I of this
report discusses our audit objective, scope, and methodology in detail.


BACKGROUND

In fulfilling its legislative mandate of insuring deposits, supervising financial institutions,
and managing receiverships, and in its role as a federal employer and acquirer of services,
the FDIC creates and obtains a significant amount of PII related to depositors and
borrowers at FDIC-insured financial institutions and FDIC employees and contractors.
Implementing proper security controls over this PII is critical to mitigating the risk of an
unauthorized disclosure that could lead to identity theft, consumer fraud, and potential
legal liability or public embarrassment for the Corporation. Widely publicized reports of
data security breaches at federal agencies have raised privacy concerns among federal
agencies, the public, and the Congress and underscore the importance of implementing a
strong, enterprise-wide privacy program.

Much of the PII managed by the FDIC and its contractors falls within the scope of several
statutes and regulations intended to protect such information from unauthorized
disclosure. These statutes and regulations include section 522 of the Consolidated
Appropriations Act, 2005 (Division H of the Transportation, Treasury, Independent
Agencies, and General Government Appropriations Act, 2005) (section 522); the Privacy
Act of 1974; section 208 of the E-Government Act of 2002; and the FDIC’s Rules and
Regulations—Parts 309, Disclosure of Information, and 310, Privacy Act Regulations.
In addition, OMB has issued a number of privacy-related memoranda containing policies
and guidelines aimed at protecting PII at federal departments and agencies. The
following summarizes the key OMB privacy-related memoranda included in our audit.

      •    Memorandum M-07-16, Safeguarding Against and Responding to the Breach
           of Personally Identifiable Information, dated May 22, 2007, requires agencies
           to develop and implement a breach notification plan and policy within 120 days.
      •    Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable
           Information and Incorporating the Cost for Security in Agency Information
           Technology Investments, dated July 12, 2006, provides guidance to agencies for
           reporting security incidents involving PII and reminds agencies of existing
           requirements to protect PII.
      •    Memorandum M-06-16, Protection of Sensitive Agency Information, dated
           June 23, 2006, recommends that federal departments and agencies implement a


3
    KPMG report entitled, Independent Evaluation of the FDIC’s Information Security Program – 2007
    (FDIC OIG Report No. AUD-07-014, dated September 27, 2007).

                                                      2
       series of controls to safeguard the remote access, transport, and storage of
       sensitive information, including PII.
   •   Memorandum M-06-15, Safeguarding Personally Identifiable Information,
       dated May 22, 2006, re-emphasizes agency responsibilities to safeguard PII and
       train employees on their privacy responsibilities. The memorandum directs
       agencies to review their privacy policies and processes and take corrective action,
       as appropriate, to ensure adequate safeguards to prevent the intentional or
       negligent misuse of, or unauthorized access to, PII.
   •   Memorandum M-05-08, Designation of Senior Agency Officials for Privacy,
       dated February 11, 2005, requests executive departments and agencies to
       designate a senior official with agency-wide responsibility for information
       privacy issues.
   •   Memorandum M-03-22, OMB Guidance for Implementing the Privacy
       Provisions of the E-Government Act of 2002, dated September 26, 2003,
       provides guidance to agencies on implementing the privacy provisions of the
       E-Government Act of 2002 and directs agencies to review the manner in which
       information on individuals is handled within agencies.

The extent to which these memoranda are legally binding on the FDIC varies. Similarly,
the extent of the FDIC’s voluntary compliance varies. Appendix II contains further
information as well as a brief description of pertinent privacy-related laws, policies, and
guidelines (including OMB memoranda) and their legal effect on the FDIC.

The FDIC’s Privacy Program

The FDIC has established a corporate-
wide privacy program to protect the PII it
manages from unauthorized use, access,
disclosure, or sharing and to safeguard
associated information systems from
unauthorized access, modification,
disruption, or destruction. As illustrated
in the figure, key components of the
FDIC’s privacy program include, but are
not limited to, a Chief Privacy Officer
(CPO) with overall responsibility for the
program; a Privacy Program Manager
who supports the CPO in developing and
implementing privacy requirements;
policies and procedures for managing and
protecting PII; a process for identifying
PII contained in applications; and
procedures for conducting PIAs of
applications and systems containing PII.
The FDIC’s privacy program also includes mandatory privacy-awareness training for
employees and contractors, a Web site to provide information regarding privacy
requirements, and targeted privacy briefings for personnel responsible for handling PII.

                                             3
In addition, the FDIC has placed bins and media consoles in its facilities to securely
dispose of sensitive information (including PII), developed a standard privacy clause for
its contracts, and conducted an initial assessment of FDIC contractors that access,
maintain, or manipulate PII for the FDIC to determine the types of PII they possess and
whether independent security reviews have been performed.

The FDIC recognizes that implementing effective measures to protect PII requires a
sustained effort. Toward that end, the FDIC has designated privacy as an issue
warranting special attention for 2007 in its annual assurance statement guidance to FDIC
managers in support of the Federal Managers’ Financial Integrity Act of 1982.
Additionally, the FDIC recently hired a staff member to support its privacy program and
plans to hire another staff member in the near future. Finally, the FDIC is conducting
walk-throughs of its facilities to identify instances in which PII needs to be better secured
and is integrating its key ongoing and planned privacy program control activities into a
formal documented framework.


RESULTS OF AUDIT

The FDIC continues to take action to safeguard its PII and related systems and address
privacy-related provisions of recent OMB memoranda. Of particular note, the FDIC has
appointed a senior agency official for privacy, conducted privacy reviews prescribed by
OMB, 4 and provided employees and contractors with privacy-awareness training.
Importantly, the FDIC has established a process for conducting privacy impact
assessments of its information systems containing PII that is consistent with relevant
privacy-related policy, guidance, and standards. In addition, the FDIC is making
satisfactory progress in implementing the provisions of OMB Memorandum M-06-15,
Safeguarding Personally Identifiable Information, dated May 22, 2006. Further, the
FDIC is working to complete a number of ongoing privacy program initiatives to
safeguard its PII and related systems consistent with privacy-related statutes, policies,
and guidelines. Such initiatives include:

      •    Deploying new software that automatically encrypts sensitive information stored
           on portable computing devices, such as laptop computers, CDs/DVDs, 5 and USB 6
           flash drives, as recommended in OMB Memorandum M-06-16. The FDIC is in
           the process of replacing its older encryption solutions that require manual




4
    OMB Circular No. A-130, Management of Federal Information Resources; Appendix I, Federal Agency
    Responsibilities for Maintaining Records About Individuals, requires agencies to conduct reviews of the
    following topics, at the indicated frequency: Section (m) Contracts, Recordkeeping Practices, Privacy Act
    Training, Violations, and System of Records Notices, every 2 years; Routine Use Disclosures and Exemption
    of System of Records reviews, every 4 years; and Matching Programs, annually.
5
    A Compact Disk and Digital Versatile Disk (CD/DVD) are optical digital disc formats used to store programs
    and data files.
6
    A Universal Serial Bus (USB) flash drive is a memory card that emulates a small disk drive and allows data
    to be easily transferred from one computer to another.

                                                       4
         intervention by users, limiting assurance that sensitive information is consistently
         encrypted. 7
    •    Conducting a comprehensive review of access controls over sensitive information
         stored on network shared drives throughout the Corporation to reduce the risk of
         unauthorized disclosure of sensitive information, including PII, consistent with
         the security principle of “least privilege.” 8, 9
    •    Ensuring that access to applications containing PII is limited consistent with the
         security principle of “least privilege.” 10
    •    Referencing in corporate policy the FDIC’s new breach notification plan and
         procedures for responding to PII breaches.
    •    Implementing measures to ensure technologies used to collect, use, store, and
         disclose PII allow for continuous auditing 11 of compliance with stated privacy
         policies and practices as required by section 522.
    •    Logging all computer-readable data extracts from databases holding sensitive
         information and verifying that each extract, including sensitive data, has been
         erased within 90 days or its use is still required as recommended in OMB
         Memorandum M-06-16.

This report contains no recommendations. We plan to follow up on the status of these
initiatives as part of privacy reviews conducted pursuant to section 522.


THE FDIC’s PRIVACY IMPACT ASSESSMENT PROCESS

Section 208 of the E-Government Act of 2002, as implemented through OMB
Memorandum M-03-22, OMB Guidance for Implementing the Privacy Provisions of the
E-Government Act of 2002, requires agencies to conduct PIAs of all information systems
containing PII and make the completed PIAs generally available to the public. Section
208 requires that published PIAs describe, among other things, the information being
collected, why the information is being collected, and the agency’s intended use of the
information. PIAs are intended to promote the public trust through increased
transparency and assurances that personal information is properly protected.


7
   FDIC OIG report entitled, Division of Resolutions and Receiverships Protection of Electronic Records
   (Report No. AUD-07-010 dated September 2007), states that sensitive information, including PII, stored on
   portable computing devices was not being encrypted and that access to sensitive information, including PII,
   stored on network shared drives and network applications was not adequately restricted.
 8
   OMB Circular No. A-130, Appendix III, Security of Federal Automated Information Resources, defines
    the term “least privilege” as the practice of restricting user access to only those IT resources (including
   data) needed to perform official duties.
 9
   See footnote 7.
10
    See footnotes 7 and 8.
11
    In this context, continuous auditing refers to management’s review of audit records (i.e., audit trails) for
    indications of inappropriate or unusual activity. Special Publication (SP) 800-53, Revision 1,
    Recommended Security Controls for Federal Information Systems, issued by the National Institute of
    Standards and Technology (NIST) (a non-regulatory federal agency within the U.S. Department of
    Commerce) recommends that agencies configure their information systems to generate audit trails based
    on organization-defined auditable events and regularly analyze those audit trails.

                                                       5
OMB Memorandum M-07-19 directs agency IGs to assess the quality of their respective
agency’s PIA process, including the agency’s adherence to privacy-related policy,
guidance, and standards. In summary, we found that the FDIC’s PIA process was
satisfactory and consistent with relevant privacy-related policy, guidance, and standards.
KPMG evaluated and reported on the adequacy of the FDIC’s PIA process in its January
2007 audit report, The FDIC’s Compliance With Section 522 of the Consolidated
Appropriations Act, 2005. KPMG concluded that the FDIC had established a formal
process for conducting PIAs of its applications and systems containing PII and posting
completed PIAs on its public Web site. However, KPMG noted that the FDIC’s PIA
process did not always ensure that publicly-posted PIAs contain sufficient information
regarding the FDIC’s collection or use of PII consistent with OMB policy and section
208 of the E-Government Act of 2002. KPMG recommended that the FDIC’s CPO
enhance the FDIC’s PIA process and review all publicly-posted PIAs to determine
whether they contain adequate disclosure regarding the types of PII used and the FDIC’s
use of PII.

In response to KPMG’s recommendations, the CPO completed a review of all the PIAs
posted on the FDIC’s public Web site and made revisions, where warranted, to ensure
that disclosures regarding the types of PII used in the PIAs were adequate and that
descriptions of the FDIC’s use of PII also were adequate. The CPO also strengthened the
FDIC’s PIA procedures by developing a PII checklist to be completed during the PIA
process. Further, the FDIC added resources to its privacy program to help ensure that
PIAs are thoroughly reviewed prior to being posted on the Web site.


THE FDIC’S PROGRESS IN IMPLEMENTING THE PROVISIONS OF OMB
MEMORANDUM M-06-15

OMB Memorandum M-06-15 re-emphasizes agency responsibilities, under existing law
and policy, to appropriately safeguard PII and train agency employees on their privacy
responsibilities. Further, OMB Memorandum M-07-19 directs agency IGs to assess their
agencies’ (1) progress in implementing the provisions of OMB Memorandum
M-06-15 since the most recent self-review, including an agency’s policies and processes,
(2) administrative, technical, and physical means used to control and protect PII. In
summary, we concluded that the FDIC is making satisfactory progress in implementing
the provisions of OMB Memorandum M-06-15. Table 1, on the next page, identifies
selected key provisions of OMB Memorandum M-06-15 and summarizes the status of the
FDIC’s actions related to each of those provisions.




                                             6
Table 1: Status of FDIC Actions Related to Selected Key Provisions of OMB
         Memorandum M-06-15
 Selected Key Provisions            Status of FDIC Actions
 The Senior Official for Privacy shall               The FDIC completed a review of its privacy
 conduct a review of the agency’s                    program policies and Web sites on August 10, 2006.
 privacy program policies and processes              In addition, the FDIC has completed reviews of its
 and take corrective action, as                      compliance with various provisions of the Privacy
 appropriate, to ensure adequate                     Act of 1974 as required by OMB Circular No. A-
 safeguards are in place to prevent the              130, Appendix I, Federal Agency Responsibilities
 intentional or negligent misuse of, or              for Maintaining Records About Individuals.
 unauthorized access to, PII. The                    Further, the FDIC’s Division of Information
 review must address all administrative,             Technology (DIT) established a process for
 technical, and physical means used by               periodically conducting walk-throughs of FDIC
 the agency to control such information,             facilities to identify potentially vulnerable PII.
 including, but not limited to,
 procedures and restrictions on the use
 or removal of PII beyond agency
 premises or control.

 Agencies shall include any privacy                  The FDIC reports its high-level, systemic privacy-
 weaknesses identified in security Plans             related weaknesses to OMB in an agency-wide
 of Action and Milestones (POA&M)                    POA&M on an annual basis. The FDIC tracks and
 already required by FISMA.                          reports its other privacy program deficiencies and
                                                     initiatives through various means, such as monthly
                                                     status reports, a project plan, and the Internal Risks
                                                     Information System (IRIS). 12 In addition, the FDIC
                                                     is working to develop a formal, documented privacy
                                                     program framework by December 15, 2007. The
                                                     framework will document and describe the
                                                     Corporation’s privacy program goals and objectives,
                                                     performance measures, organization and
                                                     relationships of key initiatives, training and
                                                     awareness strategy, and methods for reporting.




12
      IRIS is the FDIC’s official tracking database for all U.S. Government Accountability Office and OIG audits
     and reviews of the FDIC and is used to track audit findings/conditions, recommendations, and corrective
     actions/milestones. FDIC divisions and offices can also use IRIS to track the results of their internal control
     reviews, visitations, and other activities related to managing risks.


                                                           7
 Selected Key Provisions                     Status of FDIC Actions
 Agencies shall remind their employees       The FDIC sent a global e-mail message to all
 of their specific responsibilities for      employees and contractors on August 8, 2006
 safeguarding PII, the rules for             reminding them of their responsibilities for
 acquiring and using such information,       safeguarding PII, the rules for acquiring and using
 and the penalties for violating these       such information, and the penalties for violating
 rules.                                      these rules. The CPO issued a follow-up global e-
                                             mail message on May 3, 2007, in conjunction with
                                             the issuance of FDIC Circular 1360.9, Protecting
                                             Sensitive Information, also dated May 3, 2007. The
                                             message again reminded all employees and
                                             contractors of their responsibilities regarding the
                                             protection of PII. In addition, the FDIC requires its
                                             employees and contractors to certify, on an annual
                                             basis, the completion of privacy-awareness training
                                             that addresses responsibilities for safeguarding PII,
                                             the rules for acquiring and using such information,
                                             and the penalties for violating those rules.

 Agencies shall report security incidents    The FDIC has established and implemented policy
 to proper authorities, including IGs;       and procedures for reporting security incidents to
 other law enforcement; and in certain       proper authorities. In addition, the FDIC developed
 circumstances, the U.S. Department of       a breach notification plan and procedures in
 Homeland Security.                          response to OMB Memorandum M-07-16.



STATUS OF THE FDIC’S ACTIONS TO ADDRESS SELECTED KEY
PROVISIONS OF OMB PRIVACY-RELATED MEMORANDA

The FDIC has a number of initiatives underway to ensure its PII and related systems are
safeguarded consistent with privacy-related statutes, policies, and guidelines. Table 2
below identifies selected key provisions of privacy-related memoranda recently issued by
the OMB and the status of the FDIC’s actions with regard to each of those provisions.
We selected these provisions as being most germane to the reporting questions directed to
senior agency privacy officials in section D of OMB Memorandum M-07-19 and to the
FDIC’s privacy program.

Table 2: Status of FDIC Actions to Address Selected Key Provisions of Privacy-
         related Memoranda Issued by the OMB
 Selected Key Privacy Provisions            Status of FDIC Actions
 of OMB Memoranda
 OMB Memorandum M-03-22,
 OMB Guidance for Implementing
 the Privacy Provisions of the
 E-Government Act of 2002
 PIA Processes. The agency conducts         The FDIC has established and implemented a formal
 PIAs for electronic information            process for conducting PIAs of its applications and
 systems and collections and, in            systems that contain PII. The FDIC posts its PIAs on

                                                  8
 Selected Key Privacy Provisions                  Status of FDIC Actions
 of OMB Memoranda
 general, makes them available to the             its public Web site consistent with OMB policy and the
 public.                                          E-Government Act of 2002.


 Web Privacy Policies. The agency                 The FDIC has posted a privacy policy describing its
 posts privacy policies on its public             privacy practices (e.g., type of information collected,
 Web site(s).                                     how the information is used, and who has access to the
                                                  information) on its public Web site.

 Machine-readable Policies. The                   The FDIC’s public Web site contains machine-readable
 agency translates privacy policies into          Web site policies.
 a standardized machine-readable
 format.

 Persistent Tracking Technology.                  The FDIC uses persistent tracking technology for two
 The agency prohibits the use of                  of its applications: the Statistics on Depository
 persistent tracking technology (i.e.,            Institutions and FDICconnect. 14 In both cases, the use
 cookies) or any other means (e.g.,               of persistent tracking technology is approved in writing
 Web beacons 13 ) to track visitors’              by the CPO. In addition, the FDIC has in place a DIT
 activity on the Internet, except when            policy regarding the use of persistent tracking
 properly approved by a senior agency             technology. The FDIC is drafting a similar corporate
 official due to a compelling need.               policy to ensure compliance with the policy among all
                                                  divisions of the FDIC.

 OMB Memorandum M-05-08,
 Designation of Senior Agency
 Officials for Privacy
 Senior Agency Officials for Privacy.             The FDIC has designated the CPO as the senior agency
 The Agency designates a senior                   official for privacy; the CPO has overall agency-wide
 official who has overall, agency-wide            responsibility for information privacy issues. The
 responsibility for information privacy           FDIC has also designated a Privacy Program Manager
 issues.                                          to assist the CPO in implementing the FDIC’s privacy
                                                  program. Further, the FDIC has hired one additional
                                                  staff member and is in the process of filling a
                                                  remaining position to support the privacy program.

 OMB Memorandum M-06-16,
 Protection of Sensitive Agency
 Information
 Encryption of Sensitive Data on                  The FDIC is in the process of replacing its older laptop
 Mobile Computing Devices. The                    encryption solutions that require manual intervention
 agency encrypts all data on mobile               by users, limiting management’s assurance that
13
     A Web beacon is often a transparent graphic image, placed on a Web site or in an e-mail, that is used to
     monitor the behavior of users visiting the Web site or sending e-mails. Web beacons are typically used by a
     third party to monitor the activity of a site.
14
     Statistics on Depository Institutions is an advanced feature of the FDIC’s Institution Directory that allows
     users to obtain more detailed financial reports and provides the ability to create reports. FDICconnect is a
     secure Web site for insured financial institutions to conduct E-commerce with the FDIC.

                                                         9
 Selected Key Privacy Provisions                  Status of FDIC Actions
 of OMB Memoranda
 computing devices that carry agency              sensitive information is consistently encrypted. The
 data, unless the data are determined,            new software being deployed automatically encrypts
 in writing, to be non-sensitive.                 sensitive information stored on corporate laptop
                                                  computers. The deployment of the new encryption
                                                  software was approximately 60 percent complete at the
                                                  end of August 2007 and is expected to be completed by
                                                  the end of September 2007. Following the rollout of
                                                  the new laptop encryption software, the FDIC plans to
                                                  identify and deploy new software that automatically
                                                  encrypts information stored on removable media, such
                                                  as CDs/DVDs, USB flash drives, and personal digital
                                                  assistants. The FDIC’s current encryption solutions for
                                                  removable media also require manual intervention by
                                                  users, limiting management’s assurance that sensitive
                                                  information is consistently encrypted on mobile
                                                  computing devices.

                                                  The FDIC does not currently encrypt back-up tapes that
                                                  contain sensitive information. According to an FDIC
                                                  privacy official, the FDIC has investigated available
                                                  encryption solutions for securing tape media and has
                                                  not found a solution that works across the FDIC
                                                  environment. This is an area that the FDIC will
                                                  continue to explore following its encryption efforts for
                                                  other portable media.

 Remote Access with Two-Factor                    The FDIC requires that two factors be used when
 Authentication. Allow remote                     remote users authenticate to the FDIC’s network.
 access only with two-factor                      However, in some cases, the FDIC’s implementation of
 authentication, 15 whereby one of the            two-factor authentication for remote access does not
 factors is provided by a device                  satisfy OMB’s definition of two-factor authentication
 separate from the computer gaining               because the second factor is not “a device separate
 access.                                          from the computer gaining access.”


 Remote Access Time-Out. Use a                    Generally, the FDIC requires that remote users of its
 “time-out” function for remote access            network re-authenticate after 15 minutes of inactivity.
 and mobile devices requiring user                However, there are circumstances in which remote
 re-authentication after 30 minutes of            users are not required to re-authenticate to the network
 inactivity.                                      after 30 minutes of inactivity.

 Data Extract Logging and 90-Day                  The FDIC is researching potential software solutions
 Deletion. Log all computer-readable              that will log all computer-readable data extracts from
 data extracts from databases holding             databases holding sensitive data.
 sensitive information, and verify that

15
     According to NIST SP 800-53 Rev. 1, Recommended Security Controls for Information Systems,
     authentication of user identities is accomplished through the use of passwords; tokens; biometrics; or in the
     case of multifactor authentication, some combination thereof.

                                                         10
Selected Key Privacy Provisions           Status of FDIC Actions
of OMB Memoranda
each extract, including sensitive data,
has been erased within 90 days or its
use is still required.

NIST Security Checklist. The              DIT plans to confirm that the control measures
agency implements a checklist,            described in the NIST checklist are effectively
developed by NIST, to protect PII that    implemented through its ongoing and planned security
is accessed remotely or physically        testing and evaluation of information systems. The
transported outside an agency’s           FDIC performed risk assessments of its major
secured physical perimeter. The           applications and general support systems prior to the
intent of the controls contained in the   final publication of NIST SP 800-53 in February 2005.
checklist is to compensate for the lack   At the time the risk assessments were conducted, the
of physical security controls when        FDIC was planning to perform separate, streamlined
information is removed or accessed        risk assessments of its non-major information systems
from outside an agency’s facilities.      that process sensitive information (including PII) in
                                          support of system security certification and
                                          accreditation. In the spring of 2006, the FDIC decided
                                          to forgo that approach and, instead, aggregate its non-
                                          major applications into a major application or general
                                          support system to achieve efficiencies in its
                                          certification and accreditation practices. To the extent
                                          that non-major information systems processing PII are
                                          included in the aggregation, further risk assessments
                                          and security testing and evaluation may be required,
                                          and additional control measures may be necessary to
                                          ensure that remote access, transport, and storage of PII
                                          are properly safeguarded.

M-06-19, Reporting Incidents
Involving Personally Identifiable
Information and Incorporating the
Cost for Security in Agency
Information Technology Investments
The agency reports all incidents          FDIC Circular 1360.9, Protecting Sensitive
involving PII to the U.S. Computer        Information, states that the FDIC’s Computer Security
Emergency Readiness Team                  Incident Response Team shall notify the US-CERT
(US-CERT) within 1 hour of                within 1 hour of an incident if the incident involves the
discovering the incident.                 loss or compromise of PII. This circular also requires
                                          (1) immediate reporting of an event in which sensitive
                                          data are suspected or known to be lost or otherwise
                                          compromised to the DIT Help Desk and (2) notification
                                          be made to the supervisor/oversight manager and
                                          division/office Information Security Manager at the
                                          earliest opportunity. In addition, the FDIC prepared a
                                          breach notification plan and procedures for responding
                                          to PII breaches in response to OMB Memorandum
                                          M-07-16.



                                               11
OMB Memorandum M-07-16,
Safeguarding Against and
Responding to the Breach of
Personally Identifiable Information
Breach Notification Policy. The        The FDIC is currently working to augment its
agency implements a breach             corporate breach notification policy with procedures
notification policy consistent with    for responding to PII breaches. The procedures address
OMB Memorandum M-07-16 and             certain matters, outlined in OMB Memorandum
prior OMB memoranda. The policy        M-07-16, that are not in current FDIC policy, such as
is to be implemented within 120 days   privacy requirements for reporting and handling PII
of the date of the OMB memorandum      breaches and external notifications on such breaches.
(i.e., not later than September 19,
2007).

Reducing PII. To reduce the risk of    The CPO initiated a remediation project in 2005 to
a breach of PII, the agency reduces    assess the use and protection of SSNs and employee
the volume of collected and retained   identification numbers in the FDIC’s information
PII to the minimum necessary.          systems. This project includes reducing the use of PII
                                       in FDIC systems, wherever practical, to reduce the risk
                                       of a breach of PII. This project is ongoing.




                                            12
                                                                                       APPENDIX I


                        OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of the audit was to assess the status of the FDIC’s privacy program
activities and initiatives. Our work focused on the status of the FDIC’s efforts to address
selected key provisions of privacy-related memoranda recently issued by OMB. As part
of our work, we followed up on privacy-related issues identified in prior audit reports as
detailed in the Audit Coverage section below. Additionally, the OIG contracted
separately with KPMG to conduct a performance audit of the FDIC’s information
security program and practices pursuant to FISMA. As part of its security program
evaluation, KPMG prepared responses to security-related questions directed to agency
IGs in OMB Memorandum M-07-19. KPMG’s security program evaluation report, 16
together with this report, fulfill the FDIC OIG’s reporting responsibilities under FISMA
and related OMB guidance.

We performed the audit at the FDIC's offices in Arlington, Virginia, from June through
August 2007. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope and Methodology

To accomplish the objective, we interviewed key FDIC officials with privacy
responsibilities, including the Chief Information Security Officer and Privacy Program
Manager. Additionally, we reviewed relevant laws and regulations and the FDIC’s
privacy program policies, procedures, and guidance. We also reviewed key privacy-
related documentation, including PIAs, status reports, privacy-awareness training
materials, approvals for the use of persistent tracking technology, privacy-related reviews
performed by the FDIC, and the FDIC’s breach notification plan and procedures.

Audit Coverage

As a part of our current audit, we followed up on privacy-related issues identified in prior
audit reports, particularly KPMG’s January 2007 report, The FDIC’s Compliance With
Section 522 of the Consolidated Appropriations Act, 2005 (Report No. 07-003). We
considered the results of these prior and current audits in planning and conducting our
audit work:

       •   FDIC OIG Audit Report No. 06-018, Response to Privacy Program Information
           Request in OMB’s Fiscal Year 2006 Reporting Instructions for FISMA and

16
     KPMG Report No. AUD-07-014 , Independent Evaluation of the FDIC’s Information Security Program –
     2007, dated September 2007.

                                                   13
                                                                            APPENDIX I

       Agency Privacy Management, dated September 22, 2006.
   •   FDIC OIG Audit Report No. 06-020, The FDIC’s Efforts to Comply with OMB
       Memorandum M-06-16, Protection of Sensitive Agency Information, dated
       September 25, 2006.
   •   FDIC OIG Audit Report No. 07-003, The FDIC’s Compliance With Section 522
       of the Consolidated Appropriations Act, 2005, dated January 10, 2007.
   •   OIG Audit Report No. 07-010, Division of Resolutions and Receiverships
       Protection of Electronic Records, dated September 2007.
   •   KPMG Report No. AUD-07-014, Independent Evaluation of the FDIC’s
       Information Security Program – 2007, dated September 2007.

Compliance With Laws and Regulations

Our assessment of compliance with laws and regulations was limited to the portions of
statutes directly related to the FISMA reporting instructions on assessments to be
performed by the IGs. Specifically, we evaluated whether the FDIC had established
processes for conducting PIAs as required by the E-Government Act of 2002. Our audit
also assessed the FDIC’s progress in implementing PII safeguards recommended in OMB
memorandum M-06-15, Safeguarding Personally Identifiable Information, which
reemphasizes agency responsibilities under law, in particular the Privacy Act of 1974.
Appendix II contains information regarding privacy-related laws, policies, and
guidelines.

Reliance on Computer-based Data, Government Performance and Results Act, and
Fraud and Illegal Acts

Our audit objective was limited to assessing the status of the FDIC’s privacy program
activities and initiatives. Accordingly, to answer our audit objective, we did not consider
it necessary to develop procedures to assess the reliability of computer-based data or
privacy program performance measures. In addition, we did not design specific audit
procedures to detect fraud; however, throughout the audit, we were sensitive to the
potential for fraud and illegal acts. No indications of fraud or illegal acts came to our
attention during the audit.




                                            14
                                                                                                  APPENDIX II

                PRIVACY-RELATED LAWS, POLICIES, AND GUIDELINES

A number of federal statutes, policies, and guidelines are aimed at protecting (1) PII from
unauthorized use, access, disclosure, or sharing and (2) associated information systems from
unauthorized access, modification, disruption, or destruction. Brief descriptions of key
privacy-related statutes, policies, and guidelines and their legal effect on the FDIC follow.

The Privacy Act of 1974 (http://www.usdoj.gov/oip/privstat.htm)
Imposes various requirements for federal agencies whenever they collect, create, maintain, and distribute records
(as defined in the Act, and regardless of whether they are in hardcopy or electronic format) that can be retrieved by
the name of an individual or other identifier. One such requirement is to establish appropriate administrative,
technical, and physical safeguards to ensure the security and confidentiality of records and to protect against any
anticipated threats or hazards to their security or integrity which could result in substantial harm, embarrassment,
inconvenience, or unfairness to any individual about whom information is maintained. The Act also prohibits
releasing data on individuals without their permission, subject to various exceptions. Moreover, the Act requires
agencies to publish the Federal Register notices that describe the systems of records the agencies maintain on
individuals. As a federal agency, the FDIC is subject to the requirements of the Act.

The Paperwork Reduction Act of 1995 (http://www.archives.gov/federal-register/laws/paperwork-reduction/)
Requires the Director of OMB to develop policies that protect the privacy of the information maintained by
agencies (including the FDIC). See the discussions of OMB Circulars and memoranda that follow.

The E-Government Act of 2002, (http://www.cio.gov/archive/e_gov_act_2002.pdf)
Seeks to promote electronic government services and to enhance access to government information consistent with
laws regarding personal privacy. Section 207 of the Act is intended to improve the methods by which government
information, including information on the Internet, is organized, preserved and made accessible to the public.
Section 208 is intended to protect personal information by requiring agencies to (1) conduct PIAs of information
systems and collections and, in general, make PIAs publicly available; and (2) report annually to the OMB on
compliance with section 208. The Act also requires the Director, OMB to draft guidelines regarding (1) agency
posting of privacy policies on agency Web sites used by the public; and (2) translate privacy policies into a
machine-readable format. The FDIC has determined that it is subject to the requirements of this provision. Refer
to FISMA legislation for additional information.

Federal Information Security Management Act of 2002 (FISMA) (title III of the E-Government Act of 2002)
(http://csrc.nist.gov/policies/FISMA-final.pdf)
Requires federal agencies, including the FDIC, to develop, document, and implement an agency-wide information
security program that provides security for the information and systems that support the operations and assets of
the agency, including those provided or managed by another agency, contractor, or other source. FISMA directs
agencies to have an annual independent evaluation performed of their information security program and practices
and to report the results of the evaluation to OMB.

Section 522 of the Transportation, Treasury, Independent Agencies, and General
Government Appropriations Act, 2005 (Division H of the Consolidated
Appropriations Act, 2005) (http://frwebgate.access.gpo.gov/cgi-
bin/getdoc.cgi?dbname=108_cong_public_laws&docid=f:publ447.108.pdf (See page 460 of 658))
Requires, among other things, that agencies protect PII, designate a CPO, conduct PIAs under appropriate
circumstances, report to the Congress and agency IG on privacy matters, and provide training to employees on
privacy and data protection policies. Section 522 also requires that every 2 years, the agency IG contract with an
independent third party to conduct a review of the agency’s privacy program and practices and that the IG issue a
report based on that review. The FDIC has determined that section 522 of the Act applies to the Corporation.




                                                         15
                                                                                                      APPENDIX II

Federal Information Processing Standards Publication (FIPS PUB) 199, Standards
for Security Categorization of Federal Information and Information Systems
(http://csrc.nist.gov/publications/fips/fips199/FIPSPUB- 199-final.pdf)
Describes standards to be used by all federal agencies to categorize all information and information systems
collected or maintained by, or on behalf of, each agency based on the objectives of providing appropriate levels of
information security according to a range of impact levels. This publication establishes security categorization
standards for information and information systems based on the potential impact on an organization should certain
events occur that jeopardize the information and information systems needed by the organization to accomplish its
mission, protect its assets, fulfill its legal responsibilities, maintain its day-to-day functions, and protect
individuals. By its terms, this publication is not legally binding on the FDIC, but the FDIC intends to follow its
principles.

FIPS PUB 200, Minimum Security Requirements for Federal Information and
Information Systems (http://csrc.nist.gov/publications/fips/fips200/FIPS-200-final-march.pdf)
Specifies minimum security requirements for federal information and information systems supporting the
executive agencies of the federal government in 17 security-related areas. The 17 areas represent a broad-based,
balanced information security program that addresses the management, operational, and technical aspects of
protecting federal information and information systems. An agency must determine information system level
impacts under the FIPS PUB 199 standard prior to considering the minimum security requirements and appropriate
security controls under the FIPS PUB 200 standard. The FDIC has determined that the minimum requirements of
this publication are reasonable best practices which the FDIC should seek to follow.
            17
NIST SP 800-53 Rev. 1, Recommended Security Controls for Information Systems
(http://csrc.nist.gov/publications/nistpubs/800-53-Rev1/800-53-rev1-final-clean-sz.pdf)
Federal agencies must meet the minimum security requirements defined in NIST FIPS PUB 200 through the use of the
suggested controls in NIST SP 800-53 Rev. 1.

NIST SP 800-60, Volume I: Guide for Mapping Types of
Information and Information Systems to Security Categories (http://csrc.nist.gov/publications/nistpubs/800-
60/SP800-60V1-final.pdf)
Contains basic guidelines for mapping types of information and information systems to security categories. This
guidance maps identification types to the security categories and objectives and impact levels that are defined in
FIPS PUB 199.

NIST SP 800-60, Volume II: Guide for Mapping Types of Information and
Information Systems to Security Categories (http://csrc.nist.gov/publications/nistpubs/800-60/SP800-60V2-
final.pdf)
Contains the appendixes, including examples of impact assignments and security categorization rationale. This
volume is to be used in conjunction with NIST 800-60 Volume I.

NIST SP 800-64, Security Considerations in the Information Systems Development
Life Cycle (http://csrc.nist.gov/publications/nistpubs/800-64/NIST-SP800-64.pdf)
Provides a framework for incorporating security into all phases of the information system development life cycle
process, from initiation to disposal. Included within the framework are requirements to consider privacy
protection measures in accordance with relevant privacy-related federal guidance.

NIST SP 800-30, Risk Management Guide for Information Technology Systems
(http://csrc.nist.gov/publications/nistpubs/800-30/sp800-30.pdf)


17
     NIST Special Publications contain guidelines or best practices that agencies should consider. These publications are
     not legally binding on the FDIC, but the FDIC’s policy is, in general, to comply with them voluntarily.




                                                            16
                                                                                                   APPENDIX II

Provides a foundation for the development of an effective risk management program, containing both the
definitions and the practical guidance necessary for assessing and mitigating risks identified within IT systems.
The publication also provides information on the selection of cost-effective security controls. Such controls can be
used to mitigate risk for the better protection of mission-critical information and the IT systems that process, store,
and carry this information.

OMB Circular No. A-130, Management of Federal Information Resources
(http://www.whitehouse.gov/omb/circulars/a130/a130trans4.pdf)
Establishes policy for the management of federal information technology. The circular contains two relevant
appendixes:

         Appendix I, Federal Agency Responsibilities for Maintaining Records About
         Individuals, describes agency responsibilities for implementing the reporting and publication
         requirements of the Privacy Act of 1974. The head of each agency shall ensure that the following
         reviews are conducted: section (m) contracts (i.e., whereby agencies contract-out systems of records to
         accomplish an agency function); recordkeeping practices; routine use disclosures; exemption of systems
         of records; matching programs; Privacy Act training; violations; and systems of records notices. The
         FDIC has determined that OMB Circular No. A-130, Appendix I, applies to the Corporation.

         Appendix III, Security of Federal Automated Information Resources, requires agencies to establish
         controls to assure adequate security for all information processed, transmitted, or stored in federal
         automated information systems. OMB A-130 Appendix III defines adequate security as security
         commensurate with the risk and magnitude of harm resulting from the loss; misuse; or unauthorized
         access to, or modification of, information. Most of the Circular’s provisions are legally binding on the
         FDIC.

OMB Memorandum M-03-22, OMB Guidance for Implementing the Privacy Provisions of the E-Government
Act of 2002 (http://whitehouse.gov/omb//memoranda/m03-22.html)
Provides detailed guidance to agencies on how to implement section 208 of the E-Government Act, see above. It
provides definitions and explains when PIAs are or are not required, the manner in which PIAs are conducted, and
their relationship with the Paperwork Reduction Act and the Privacy Act. The memorandum contains
requirements for agency website, specifically regarding privacy policies and persistent tracking technologies
("cookies"). Other provisions address privacy policies in machine readable formats, responsibilities of agency
officials, and reporting requirements. To the extent that the provisions of this memorandum are legally binding on
the FDIC, the FDIC has taken steps to implement those provisions or has otherwise taken them into account.

OMB Memorandum M-05-08, Designation of Senior Agency Officials for Privacy
(http://www.whitehouse.gov/omb/memoranda/fy2005/m05-08.pdf)
Requests that agencies designate a senior official for privacy. The FDIC complied with the memorandum by
designating the CPO as the senior agency official.

OMB Memorandum M-06-15, Safeguarding Personally Identifiable Information
(http://www.whitehouse.gov/omb/memoranda/fy2006/m-06-15.pdf)
Describes responsibilities and the policy for appropriately safeguarding sensitive PII and for training employees on
their responsibilities in this area. OMB requires the senior agency official for privacy to conduct a review of
policies and processes and take corrective action as appropriate to ensure adequate safeguards exist to prevent
misuse or authorized access to PII. Any weaknesses are to be identified in a security POA&M consistent with
FISMA. According to the FDIC, to the extent that the provisions of OMB Memorandum M-06-15 are legally
binding on the FDIC, the FDIC has taken steps to implement those provisions or has otherwise taken them into
account.




                                                          17
                                                                                                 APPENDIX II

OMB Memorandum M-06-16, Protection of Sensitive Agency Information
(http://www.whitehouse.gov/omb/memoranda/fy2006/m06-16.pdf)
Includes a checklist for agency use in protecting PII that is remotely accessed or transported outside the agency.
The checklist is based on NIST SPs 800-53, Recommended Security Controls for Federal Information Systems;
and 800-53A, Guide for Assessing the Security Controls in Federal Information Systems (Second Public Draft). In
addition, M-06-16 recommends the encryption of all data on mobile computers/devices that carry sensitive data,
two-factor authentication for remote access, “time-out” functions for remote access and mobile devices, and the
logging of all computer-readable data extracts from databases containing sensitive information. According to the
FDIC, to the extent that the provisions of OMB Memorandum M-06-16 are legally binding on the FDIC, the
FDIC has taken steps to implement those provisions or has otherwise taken them into account.

OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable
Information and Incorporating the Cost for Security in Agency Information Technology Investments
(http://www.whitehouse.gov/omb/memoranda/fy2006/m-06-19.pdf)
Provides guidance on the reporting of security incidents involving PII. This guidance requires all agencies to
report all suspected or confirmed breaches involving PII in an electronic or physical form, within 1 hour of
discovering the incident, to the U.S. Center Emergency Readiness Team, a federal incident response center located
within the U.S.Department of Homeland Security. According to the FDIC, to the extent that the provisions of
OMB Memorandum M-06-19 are legally binding on the FDIC, the FDIC has taken steps to implement those
provisions or has otherwise taken them into account.

OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable
Information (http://www.whitehouse.gov/omb/memoranda/fy2007/m07-16.pdf)
Reiterates the need for agencies to comply with NIST standards and guidelines in connection with system
certifications and accreditations and to train employees on privacy and security responsibilities. In addition, OMB
Memorandum M-07-16 requires agencies to review and reduce the volume of PII and the use of SSNs in their
records and to implement five security requirements from M-06-16 (see above). Newly added is the requirement
for agencies to develop and implement a policy by September 19, 2007 for notifying third parties of security
breaches involving PII. The FDIC will voluntarily comply with the provisions in Memorandum M-07-16.

OMB Memorandum M-07-19, FY 2007 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management (http://www.whitehouse.gov/omb/memoranda/fy2007/m07-
19.pdf)
Provides instructions for meeting the reporting requirements under FISMA for fiscal year 2007. The
memorandum also includes instructions for reporting the status of the privacy management program. It is the
FDIC’s practice to comply with the OMB’s FISMA instructions.

FDIC Rules and Regulations

          Part 309, Disclosure of Information (http://www.fdic.gov/regulations/laws/rules/2000-3800.html) sets
forth the basic policies of the FDIC regarding the information it maintains and the procedures for obtaining access
to such information.

         Part 310, Privacy Act Regulations, (http://www.fdic.gov/regulations/laws/rules/2000-3900.html)
establishes regulations implementing the Privacy Act of 1974 by delineating the procedures that an individual
must follow in exercising his or her access or amendment rights under the Privacy Act of 1974 to records
maintained by the Corporation in its systems of records, as defined in the Act.

FDIC Circular 1023.1, Procedures for Processing Freedom of Information Act Requests
(http://fdic01/division/doa/adminservices/records/directives/1000/1023-1.doc)
Contains the FDIC’s procedures for processing requests and appeals pursuant to the Freedom of Information Act.




                                                        18
                                                                                                 APPENDIX II

FDIC Circular 1031.1, Administration of the Privacy Act
(http://fdic01/division/doa/adminservices/records/directives/1000/1031-1.doc)
Establishes requirements for the collection, maintenance, use, and dissemination of records subject to the Privacy
Act of 1974.

FDIC Circular 1360.9, Protecting Sensitive Information
(http://fdic01/division/doa/adminservices/records/directives/1000/1360-9.doc)
Establishes FDIC policy on protecting sensitive information collected and maintained by the Corporation and
provides guidance for safeguarding the information.

FDIC Circular 1360.12, Reporting Computer Security Incidents
(http://fdic01/division/doa/adminservices/records/directives/1000/1360-12.doc)
Establishes FDIC policy on reporting suspected computer security incidents affecting all FDIC automated
information systems resources to the FDIC Computer Security Incident Response Team.

FDIC Circular 1360.16, Mandatory Information Security Awareness Training
(http://fdic01/division/doa/adminservices/records/directives/1000/1360-16.doc)
Establishes FDIC policy on mandating annual information security awareness training for all employees and
contractors who are involved in the management, use, or operation of a federal computer system within or under
the supervision of FDIC.

Division of Information Technology IT Policy Memorandum, Cookies in Internet
Product (http://fdic01.prod.fdic.gov/division/dit/cookies.html)
Establishes the policy and standard for the use of cookies in Internet, FDICnet, and extranet-type products
developed or deployed by the FDIC.




                                                        19
